CARNEGIE INSTITUTION OF WASHINGTON
            Washington, D.C.




      Financial and Compliance Audit
                     of
               Indirect Costs
            For the Year Ended
               June 30, 2000




                                M.D. Oppenheim & Company, P.C.
                                        Certified Public Accountants
                                    8403 Colesville Road, Suite 340
                                Silver Spring, Maryland 20910-3367
                       CARNEGIE INSTITUTION OF WASHINGTON

                                        Table of Contents

                                                                                  Page

Acronyms                                                                            1

Section I - Introduction and Audit Results:
   Background                                                                       3
   Objective and Scope of Audit                                                     3
   Summary of Audit Results                                                         5
   Exit Conference                                                                  9

Section II - Findings and Recommendations:
   Independent Auditors' Report on Compliance and Internal Control                11
   Findings and Recommendations on Compliance                                     13
   Finding and Recommendation on Internal Control                                 25

Section III - Financial Schedules:
   Independent Auditors' Report                                                   30
   Financial Schedules:
   Schedules A-1 to A-6 - Schedule of Over/(Under) Recovered Indirect Costs
                              on National Science Foundation Awards               32
   Schedules B-1 to B-8 - Schedule of Indirect/Direct Costs                       40
   Schedules C, C-1 to C-7 - Schedule of Auditors' Adjustments and Eliminations   55
   Notes to Financial Schedules                                                   74

Section IV - Awardee's Response                                                   76
	




               CARNEGIE INSTITUTION OF WASHINGTON

                                   Acronyms



    Acronym   Explanation of Acronym

    ADMIN     Administration Department

    AICPA     American Institute of Certifred Public Accountants

    CIW       Carnegie Institution of Washington

    DACS      Division of Acquisition and Cost Support

    DGA       Division of Grants and Agreements

    DTM       Department of Terrestrial Magnetism

    EMB       Department of Embryology

    FAR       Federal Acquisition Regulation

    FCTR      Federal Cash Transaction Report

    GEO       Geophysical Laboratory

    IDCP      Indirect Cost Proposal

    MTDC      Modified Total Direct Costs

    NSF       National Science Foundation

    PBIO      Department of Plant Biology

    OBS       The Observatories

    OIG       Office of Inspector General

    OMB       Office of Management and Budget

    RP        Research Projects




                                                                   1
          SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                               SECTION I -
                     INTRODUCTION AND AUDIT RESULTS

                                        BACKGROUND

        The Carnegie Institution of Washington (CIW) was founded in 1902 by Andrew
Carnegie. The mission of CIW is to encourage investigation, research discovery, and the
application of knowledge to the improvement of mankind. CIW conducts advanced research and
training in five research centers located throughout the United States and at an observatory in
Chile. This research and training is conducted within CIW's Departments of Embryology, Plant
Biology, Terrestrial Magnetism, the Geophysical Laboratory, Research Projects and the
Observatories. CIW's headquarters is in Washington, D.C. where it conducts its administration
and fundraising activities, in addition to a small number of research projects. To achieve a more
equitable distribution of costs, separate indirect cost rates are used at each of the research
centers/observatories and one for headquarters.

        CIW receives approximately $69 million of annual revenues from investments, grants
and contracts, and other contributions and income. Federal agencies provide approximately $14
million or 20 percent of CIW's total revenues. The National Science Foundation (NSF) provides
$7 million or 50 percent of the federal financial assistance annually to CIW. Because NSF
provides the most funds out of seven federal agencies, NSF is the cognizant federal audit agency
for CIW's indirect cost rates.

                           OBJECTIVE AND SCOPE OF AUDIT

      At the request of NSF, M.D. Oppenheim & Company, P.C. conducted a financial and
compliance audit of the indirect cost proposals prepared by CIW for the year ended June 30,
2000 to determine the final indirect cost rates for that year. CIW prepared a separate indirect
cost proposal for each of the following:

         •
         •
             Department of Embryology (EMB)

         •
             Department of Plant Biology (PBIO)

         •
             Department of Terrestrial Magnetism (DTM)

         •
             Geophysical Laboratory (GEO)

         •
             Research Projects (RP)
             The Observatories (OBS)

       During the period of our audit (July 1, 1999 to June 30, 2000), there were 53 NSF awards
that included indirect costs based on a maximum provisional rate in the award letter and/or
budget and 17 awards that had no indirect costs. Our audit objectives were: (1) to determine
whether CIW complied with federal requirements in computing its indirect cost proposals for the
year ended June 30, 2000; (2) to determine whether CIW over or under-recovered indirect costs
on each NSF award active during the audit period, based upon audit-determined indirect cost
rates; and (3) to evaluate the adequacy of CIW's internal controls to administer, account for, and
monitor indirect cost charges to federal awards.




                                                                                                3
To accomplish the objectives of the audit, we:

•    Conducted on-site surveys with sufficient observations, interviews, and examinations of
     documents to make an initial determination whether the maximum provisional rate was
     based on allowable indirect costs and whether controls to administer, account for, and
     monitor indirect costs were adequate to ensure compliance with federal cost principles and
     administrative requirements.

•    Prepared an audit planning document for OIG review and approval. The planning
     document included a description of CIW's organizational structure and the process used to
     administer, account for, and monitor indirect cost charges to federally sponsored awards.
     As part of the planning process, we performed an assessment of audit risk and obtained an
     understanding of CIW's control environment.

•    Prepared an internal control audit planning document for OIG review and approval. The
     internal control planning document included the proposed audit program/procedures for
     testing the significant internal controls necessary to accurately administer, account for, and
     charge indirect cost charges to federally sponsored awards. As part of the internal control
     process, we assessed the areas of control environment, risk assessment, information and
     communication, monitoring and control activities.

•    Prepared a substantive audit testing planning document for OIG review and approval. The
     substantive planning document included the preliminary results of the internal control
     phase of the audit, including any fmdings and recommendations, and the proposed audit
     program, which included the tests of compliance with applicable laws and regulations and
     substantive testing procedures to be applied to the indirect cost pools and the direct cost
     bases.

•    Performed testing procedures so as to determine whether the indirect cost proposals and
     the resultant indirect cost rates comply with OMB Circulars A-110, Uniform
     Administrative Requirements for Grants and Agreements with Institutions of Higher
     Education, Hospitals and Other Non-Profit Organizations, and A-122, Cost Principles for
     Non-Profit Organizations.

      We conducted our audit in accordance with AICPA auditing standards generally accepted
in the United States of America and the Comptroller General's Government Auditing Standards,
and included tests of the accounting records and other auditing procedures that we considered
necessary to fully address the audit objectives.




                                                                                                 4
        CIW generally proposed and billed indirect cost rates on its individual grants that were
significantly lower than the maximum provisional rates negotiated with NSF. CIW believed
 their grant proposals would be more competitive if they used lower rates, generally under 60
 percent. CIW over-recovered only a minimal amount of funds in excess of allowable amounts
 because our audit recommended rates closely matched the rates that CIW used to bill indirect
 costs on their NSF awards. We found that CIW claimed only $4,661 more than it actually
 incurred on 16 out of 53 NSF awards active during fiscal year 2000 (see Schedule A-Summary).
 Had CIW billed at the lower of the maximum provisional rates or the proposed indirect cost
 rates, CIW would have substantially over-recovered indirect costs on its NSF awards.

     We found the following compliance and internal control deficiencies in CIW's procedures
and processes to administer, account for, and monitor its indirect costs.

Material Non-Compliance




I
    NSF negotiated maximum provisional rates for CIW's research centers that covered the period July 1, 1999 through June 30, 2000.
2
 On most awards, CIW used the same billing rate to charge indirect costs. However on eight awards, CIW used lower rates to charge indirect
costs to comply with award terms.




                                                                                                                                        5
Internal Control Weakness

     These improper charges occurred because CIW did not have adequate internal controls to
administer, account for, and monitor indirect costs to ensure compliance with federal cost
principles. We noted deficiencies in the proper offset of applicable credits, exclusion of
participant support costs, classification of direct and indirect costs, treatment of capital and non-
capital equipment costs, year-end cut-off procedures, and cost allowability. These internal


                                                                                                   6
control weaknesses were due to the lack of adequate written policies and procedures related to
indirect costs and the lack of adequate training in the application of federal cost principles to
CIW operations.

     To address the compliance and internal control deficiencies, we recommend that the
Directors of NSF's Division of Acquisition and Cost Support (DACS) and the Division of Grants
and Agreements (DGA) require that CIW develop written policies and procedures related to
indirect costs and receive training in the application of federal cost principles to ensure that these
weaknesses are resolved in CIW operations. We also recommend that NSF evaluate the
adequacy of CIW's corrective actions on these recommendations and determine whether
maximum provisional rates approved by NSF subsequent to FY2000 should be adjusted.

Summary of Auditee's Response

      Except for the items listed below, CIW generally agreed with the frndings relating to the
capitalization of equipment, and the costs recorded in the wrong fiscal year.         We have
summarized CIW's response below and after each finding. CIW's response is included in its
entirety in the Appendix.

•    CIW disagreed that rental income of $372,616 should be offset against indirect costs.
     CIW does not believe that rental revenue is an applicable credit as defined by OMB
     Circular A-122, and that it would be inappropriate for the government to recover these
     revenues by reducing the indirect cost rates. With respect to the remaining $948,794
     revenue, CIW agrees that these revenues should be offset against the indirect cost pools.
     However, CIW believes that the revenues, related to a fixed fee for site use ($123,100),
     should be offset against the Observatories indirect cost pool rather than the Administrative
     indirect cost pool.

•    CIW disagreed that stipends paid to postdoctoral associates and fellows should be included
     in the direct cost base. CIW believes that these payments are training related and in
     accordance with OMB Circular A-122 guidance, these stipends should be excluded from
     the direct cost base. OMB guidance states that stipends to trainees should be excluded
     from the base.

•    CIW disagreed that the shifting of costs from a direct cost center to an indirect cost center
     was inappropriate because CIW should have initially classified the costs as indirect.

•    Regarding unallowable costs, CIW believed the fines and penalties, investment manager
     expenses, and entertainment costs, are all allowable under federal cost principles.

•    Regarding the internal control weakness, CIW took strong exception to our finding that they
     do not have adequate internal controls to administer, account for, and monitor indirect costs
     to ensure compliance with federal cost principles. CIW also stated that the vast majority of
     the issues we identified were issues related to interpretation of federal guidelines rather than
     issues of compliance.




                                                                                                    7
Summary of Auditors' Comments

      With respect to the compliance issues presented in the report with which CIW disagreed,
our responses can be summarized as follows:

•    We agreed with CIW's position on applicable credits relating to building revenues and
     have modified our report accordingly. With respect to the fixed fee for site use, we also
     agreed with CIW that these revenues should offset the Observatories indirect costs, and
     have modified our report accordingly.

•    We do not believe CIW adequately understood our position that the postdoctoral associates
     and fellows benefited from the indirect costs and CIW should have allocated indirect costs
     to these individuals by including the stipend costs in the direct cost bases. The postdoctoral
     associates and fellows benefrted from indirect costs when CIW paid stipends on a regular
     basis for a year or longer through CIW's payroll department. Furthermore, postdoctoral
     associates and fellows benefited from indirect costs by CIW providing human resource
     support from the CIW personnel office and CIW providing on-site office space and
     supplies. CIW included in its indirect cost pools personnel support and office space,
     including maintenance and utilities.

•    We agreed with CIW's position that an $11,611 adjustment was appropriate because CIW
     transferred costs between two indirect cost objectives and we have adjusted our report.
     With respect to the remaining $13,522 of misclassified costs, we disagreed with CIW's
     position that the shifting of costs from direct to indirect within DTM was appropriate, since
     these are cost overruns, which are unallowable as direct or indirect costs.

•    We disagreed with CIW that the fines and penalties, the Endowment Manager expenses,
     and the entertainment costs should be allowable. The fines and penalties consisted of
     attorney's fees incurred to investigate misappropriation of federal funds. This investigation
     activity was not part of CIW ordinary operations and should not be allowable. Also, the
     misappropriation of federal funds was due to a lack of adequate internal controls, and
     therefore, we believe it is not reasonable to charge these costs to the federal government
     directly or indirectly. For the Endowment Manager expenses, we believe the job
     description fits the definition of OMB Circular A-122 regarding unallowable investment
     management expenses. Finally, we believe the entertainment costs also are unallowable.
     While a holiday party may boost employee morale, these costs do not meet the definition of
     employee morale as allowed in OMB Circular A-122, but rather meet the definition of an
     unallowable social activity.

•    Regarding the internal control weakness, we do acknowledge that the federal guidance can
     be interpreted differently. However, CIW will help ensure compliance with federal
     guidelines by training staff in the application of these federal guidelines to CIW
     operations, developing written procedures to implement federal guidelines, along with
     conducting reviews of the operation of these procedures.




                                                                                                 8
                                  EXIT CONFERENCE

      An exit conference was held on September 9, 2002 at the Auditee's office located at
1530 P Street, Northwest, Washington, D.C. The findings on compliance along with the
adjustments, eliminations and exclusions related to the indirect cost proposals were discussed by
the following individuals:




                                                                                               9
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               10
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                          AND INTERNAL CONTROL

We have audited the summary schedules of over/(under) recovered indirect costs (Schedules A)
and the schedules of indirect/direct costs (Schedules B) which summarize the indirect cost
proposals prepared by the Carnegie Institution of Washington for the year ended June 30, 2000,
and have issued our report thereon dated September 9, 2002. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards issued by
the Comptroller General of the United States and the National Science Foundation Audit Guide
(September 1996).

Compliance

As part of obtaining reasonable assurance about whether the Carnegie Institution of
Washington's financial schedules are free of material misstatement, we performed tests of its
compliance with certain provisions of laws, regulations, and policies, noncompliance with which
could have a direct and material effect on the determination of the financial schedules amounts.
However, providing an opinion on compliance with those provisions was not an objective of our
audit and, accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance, as reported in the accompanying Findings and Recommendations on
Compliance and the adjustments and eliminations noted in Schedules C-1 through C-7, that are
required to be reported under Government Auditing Standards and the National Science
Foundation Audit Guide.

Internal Control Over Financial Reporting :

In planning and performing our audit, we considered the Carnegie Institution of Washington's
internal control over financial reporting in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial schedules and not to provide assurance on the
internal control over financial reporting. However, we noted certain matters involving internal
control over financial reporting and its operation that we consider to be reportable conditions.
Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over frnancial reporting that, in our judgment,
could adversely affect the Carnegie Institution of Washington's ability to record, process,
summarize and report financial data consistent with the assertions of management in the
financial schedules. The reportable conditions noted are described in the accompanying Finding
and Recommendation on Internal Control.



                                                                                               11
National Science Foundation
Office of Inspector General
Arlington, Virginia


A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements
in amounts that would be material in relation to the financial schedules being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also considered to
be material weaknesses. However, we consider the reportable condition described in finding
number 1 to be a material weakness.

This report is intended solely for the information and use of the Carnegie Institution of
Washington and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




September 9, 2002




                                                                                              12
                        CARNEGIE INSTITUTION OF WASHINGTON
                         Findings and Recommendations on Compliance
                                For the year ended June 30, 2000

                                       Material Deficiencies

1. Applicable Credits Not Properly Offset

      Office of Management and Budget (OMB) Circular A-122 requires that "to the extent that
such credits accruing or received by the organization relate to allowable cost, they shall be
credited to the Federal Government." Applicable credits is defined by this circular as those
receipts, or reduction of expenditures, which operate to offset or reduce expense items that are
allocable to awards as direct or indirect costs. CIW receives revenue from a fixed fee for site
use, contributions from a third party to cover library subscriptions at the Department of
Embryology (EMB), and contributions from third-parties to cover operational costs at the
Observatories (OBS). These amounts totaled $948,794 for the year ended June 30, 2000.
However, CIW did not appropriately recognize these credits in its indirect cost rate calculations.
The following are examples:

•   A fee for site use of $123,100 was received by the Administration Departm ent (ADMIN), but
    was not recorded as an offset to the Observatories' indirect cost pool. These revenues relate
    to expenses incurred at the Observatories which were included as indirect costs in the
    Observatories pool. Therefore, the indirect cost pool for the Observatories was overstated by
    this amount. In another instance, a workers compensation dividend of $68,064 was received
    by ADMIN but was not offset against the associated indirect costs.

•   At EMB, CIW received payment of $22,000 for library subscriptions from a third party.
    CIW did not offset this amount against its indirect costs, resulting in an overstatement of its
    indirect cost pool for EMB of $22,000.

•   CIW also recorded revenue for the contributions of $735,630 from third parties for the use of
    the Magellan telescopes. However, all operating expenses of the Magellan telescopes are
    included in the indirect cost pool for OBS. These revenues were not properly offset against
    the expenses, resulting in an overstatement of the indirect cost pool.

       CIW did not adequately understand the cost principle related to the offset of applicable
credits.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement policies and procedures to identify applicable credits related to CIW operations
and ensure that future indirect cost proposals reflect the correct application of these offsets.




                                                                                                 13
Auditee's Response

      CIW took exception to our recommendation to credit $372,616 of space rental revenue in
the draft audit report. CIW believes it has allocated building expenses appropriately in its
indirect cost proposal.

       CIW agreed that the fee for site use for $123,100 does offset the indirect costs, but CIW
indicated that the appropriate offset is the costs at the OBS instead of ADMIN, as we have
proposed. CIW agreed that the remaining offsets ($735,630 for the Magellan Telescopes and
$22,000 for library subscriptions, and $68,064 for worker's compensation refund) should have
been credited to the appropriate indirect cost pool. CIW indicated it will provide training to its
staff and review its revenues to ensure that all applicable credits are properly applied.

Auditor's Comments

      With respect to the building revenue at P Street and the Department of Embryology, we
modified our report to remove our proposed adjustments. With respect to the fixed fee for site
use for $123,100, we modified our report to include these adjustments to the Observatories
indirect cost pool, rather than the ADMIN indirect costs. With respect to the remaining
applicable credits, CIW's proposed actions will correct the weaknesses noted. We recommend
that the Directors of NSF's DGA and DACS require that CIW provide documentation that
proposed accounting procedures and training have been implemented.

2. Participant Support Costs Improperly Excluded

        OMB Circular A-122 states that the distribution base for indirect costs may be total direct
costs (excluding capital expenditures and other distorting items, such as subcontracts or
subgrants.) It also states the distribution base shall generally exclude participant support costs.
The Circular defines participant support costs as direct costs for items such as stipends or
subsistence allowances, travel allowances, and registration fees paid to or on behalf of
participants or trainees (but not employees) in connection with meetings, conferences,
symposia, or training projects. Finally, NSF's Grant Proposal Guidance includes expenses
related to graduate students and postdoctoral associates as components of salaries and wages and
not participant support costs.

        CIW excluded $1,743,052 in payments of stipends to postdoctoral associates and fellows
from the direct cost bases (See Schedules C for breakout by departments). However, these
individuals worked on-site, used supplies, and are processed through CIW's payroll system, and
therefore they benefited from indirect costs and should be included in the direct cost bases so
they can be assigned their fair share of indirect costs. These stipend costs did not distort the
direct cost bases like capital expenditures and subcontracts.

        CIW was following the letter of NSF guidance which states participant support costs are
excluded from the direct cost base, rather than the intent of the guidance, which is to exclude
distorting items from the direct cost base. The costs that CIW included in participant support
were not distorting items, and therefore should be included in the direct cost base.



                                                                                                14
Recommendation

       We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement policies and procedures to identify distorting costs that should be excluded from
the direct cost base and to identify items that are not distorting costs and should be included in
the direct cost base.

Auditee's Response

       CIW disagreed with the position the auditors have taken regarding CIW's fellows. The
Institution received its designation as a section 170 (b) (1) (A) (ii) educational organization from
the IRS in February of 1971, and has maintained this status ever since. As the auditors' own text
states, Circular A-122 provides for the exclusion of stipends and subsistence allowances for
trainees. Payments CIW makes to its fellows are designed to support these individuals as they
gain the additional experience they need in order to succeed as researchers or professors at other
organizations. Typically, a fellow is only at CIW for two or three years, and then moves on to
another organization. An individual seeks a fellowship at CIW with a particular staff member,
because that individual wants training in a specific area, and seeks a particular body of
knowledge. Once an individual receives a fellowship from CIW, he/she does not receive the
supervision that employees do, but operates on a conferring basis with the staff member he/she
has chosen. Fellows do not receive retirement benefits, life insurance coverage or disability, and
they do not earn paid annual leave. CIW believes the auditors' position that fellows are de facto
employees is not consistent with any of the facts and circumstances (fellows do not receive
wages or salary and are not part of the direct labor allocation base).

      The auditors' comment concerning the difference between "the letter of NSF guidance"
and the "intent of the guidance" underscores a significant dilemma for CIW and all other
contractors and recipients of federal funds. Rules and regulations are intended to be applied as
written and are not to be left to the subjective interpretation of the contractor. If NSF intended
some other interpretation it would have drafted it in the written regulation. Additionally, the
auditors' comment refers to "distorting costs" which are not defined in any of the guidance
available to CIW, and therefore contribute further to a sense of confusion.




                                                                                                 15
Auditor's Comments

      While the guidance and definitions in this area may appear confusing and unclear, we
believe these stipends should not be excluded from the base because the postdoctoral associates
and fellows benefit from indirect costs, even though they may not benefit from all the fringe
benefits that CIW mentions in their response. Capital expenditures, subcontracts, and participant
support are generally excluded from the direct cost base because these expenditures do not
benefit from the indirect costs the way other expenditures do, and therefore distort the base.

       Participant support costs are typically one time payments in which the direct costs for
items such as a stipend, travel cost, or registration fee, does not benefit from indirect costs (such
as office space and supplies). In these cases, it is appropriate to exclude these costs from the
direct cost base because they are distorting (OMB Circular A- 122, Attachment A, Section D. 2.
c., states that the distribution base may be total direct costs (excluding capital expenditures and
other distorting items, such as major subcontracts or subgrants). We do not believe the fact that
the postdoctoral associates and fellows are receiving training is relevant because the stipends are
not participant support costs involving a one-time payment but are labor costs paid via stipend.
The stipend payments directly relate to indirect costs. For example:

   •   The fellows were paid on a monthly basis, and are often on the payroll for a year or
       longer. These individuals were processed through a third-party payroll system, whose
       costs were included in the indirect cost pool. In addition, the administrative staff at
       ADMIN had to create and maintain a personnel file, prepare and reconcile the payroll and
       record the payroll in the general ledger. These administrative tasks were charged to the
       indirect cost pool at ADMIN.

   •   The fellows worked on site at the various research labs, utilizing office space and
       supplies, which are included in the indirect costs of that particular lab.

   •   Both laboratory space and office supplies were included in the indirect cost pools.

      Therefore, we disagree with CIW's arguments and believe our adjustments are
appropriate.


3. Misclassification of Direct Costs as Indirect Costs

      OMB Circular A-122 defines direct costs as those that can be identified specifically with a
particular award, project or other direct activity of an organization. It also states that cost
overruns on any award are unallowable as a cost of any other award.

      For the year ended June 30, 2000, CIW erroneously included $13,522 of direct costs in the
Department of Terrestrial Magnetism (DTM) indirect cost pool. These expenses consisted of
research supplies and other services. In one instance, $4,422 was originally recorded as a direct
project cost and subsequently adjusted to the indirect cost pool after a scientific staff member
stated the expense could not be charged to the grant. In another instance, $15,600 was split

                                                                                                  16
between direct ($6,500) and indirect ($9,100) because there was not enough money in the project
budget. Accordingly, we eliminated $9,100 from the DTM indirect cost pool.

       CIW included these costs in the indirect cost pool because DTM staff did not understand
that federal cost principles require cost overruns to be treated as direct costs and cannot be
recorded as indirect costs simply because there are not project funds available to cover the costs.

Recommendation

       We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement written policies and procedures for the classification of direct and indirect costs
and the prohibition of cost shifting from direct to indirect, to ensure that CIW's future indirect
cost rate proposals do not include direct costs in the indirect cost pools.

Auditee's Response




      CIW believed the auditors incorrectly noted that $4,422 was moved from a grant cost
center (direct activity) to an endowment cost center (indirect activity), as the result of comments
made by a staff member to the Fiscal Officer that the particular expenses could not be charged
directly to the grant. There does not appear to be anything out of order here; the staff member
was exercising oversight responsibility with regard to his grants, and an expense that could not
be charged directly to the grant was moved to a general endowment overhead cost center. The
fact that an expense benefits a department so broadly that it cannot be charged directly to a
particular grant does not make it unallowable, a point which seems to have been lost in the
discussion of the $4,422 adjustment.


Auditor's Comments

      With respect to the $11,611 adjustment, we modified our report to remove our proposed
adjustments as we concurred that these charges may be appropriately charged to the indirect cost
pool at DTM based on additional information provided by CIW.

       For the $4,422 adjustment, the supporting documentation shows that these costs were
originally charged as direct expenses and then shifted, not because the costs should be
appropriately charged as an indirect cost, but as a result of a budget overrun. Lack of available
grant funds does not make an otherwise direct cost an indirect cost to be charged to the
department as a whole and results in inconsistent treatment of like costs. Adjustment of costs
from direct costs to indirect costs because of a cost overrun is in violation of federal guidelines
on allowable costs.
                                                                                                17
       For the remaining $9,100, CIW's response did not address the issue of splitting costs
because there was not enough money in the grant budget, although the CIW does acknowledge
that these costs do not belong in the indirect cost pool.

4. Equipment Purchases Improperly Excluded

       OMB Circular A-122 states that the distribution base may be total direct costs (excluding
capital expenditures (equipment) and other distorting items, such as major subcontracts or
subgrants), direct salaries and wages, or another base which results in an equitable distribution.
However, CIW excluded from the direct cost bases certain equipment purchases that did not
meet the organization's capitalization threshold. Because these items properly were expensed in
the books of account, these costs should be included in the direct cost bases. Audit adjustments
of $226,883 were made to include these non-capital costs as direct costs (See Schedules C for
breakout of adjustments by department). It is unclear why these items were excluded from the
bases, as most of these were recorded in an account titled "non-capital assets."

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement policies and procedures to ensure that non-capital equipment costs are not
excluded from the indirect cost rate calculations.

Auditee's Response

      CIW agreed that these items should be expensed in the future, and included in the
denominator of the indirect cost rate for each department. CIW clearly explained to the auditors
that the pattern for treating "non-capital assets" evolved from the fact that CIW expected
multiple years of use from these low dollar purchases. CIW agrees that the treatment is non-
standard, and will correct it.

Auditor's Comments

     We recommend that the Directors of NSF's DGA and DACS require that CIW provide
documentation that proposed accounting procedures have been implemented.

5. Unallowable Costs Included in the Indirect Cost Pool

       OMB Circular A-122 and federal regulations state that costs such as certain travel
expenses, entertainment, alcoholic beverages, fines and penalties, investment management
expenses, contributions and gifts, and other unnecessary or unreasonable expenses are
unallowable. Our audit identified $113,909 in unallowable costs that CIW included in the
indirect cost pools (See Schedules C for breakout of unallowable costs by department).

      Travel

      Federal cost principles state that travel costs should be allowable if they are reasonable. In
the absence of specific written CIW travel policies, Standard Government Travel Regulations
provide a measure of approved per diem and mileage rates. Our testing identified $11,189 of
                                                                                                  18
unallowable travel costs. CIW did not have specific policies concerning the amount of travel
expense incurred but is currently working to update their policies to conform with Federal Travel
Regulations.

      Entertainment

      CIW included $10,599 of costs in its indirect cost pools related to holiday parties and other
events that we considered to be entertainment costs. CIW considered these costs as employee
morale, and therefore did not exclude them from the pool.

      Alcoholic Beverages

      CIW included in its indirect cost pools $2,069 of alcoholic beverages.          This was an
oversight on CIW's part, as it had properly excluded other alcohol-related costs.

      Fines and penalties

      CIW included in its indirect cost pool $7,666 of legal fees associated with the investigation
of an allegation of fraud in the conduct of an NSF award. FAR 31.205-15 includes in its
definition of fines and penalties costs incurred in connection with, or related to, the mischarging
of costs on government contracts. Although not explicitly stated under Fines and Penalties in A-
122, the concept is applicable, and therefore these costs should be excluded from the indirect
cost pool because it is not reasonable to charge the government for these costs. CIW believes
these costs do benefit the government and therefore should be allowable.

      In other instances, CIW included $75 related to the payment of a traffic violation and $117
related to bank late fees in the indirect cost pools, which are also unallowable. This was an
oversight on CIW's part.

      Investment management expenses

      OMB Circular A-122 states that the costs of investment counsel and staff and similar
expenses incurred solely to enhance income from investments are unallowable. We noted that
CIW charged $42,000 of salaries, $11,970 of related fringe benefits, and $1,022 of expenses
related to its investment advisor for a trip to San Francisco. These costs were included in the
indirect cost pool at ADMIN; however, they should have been recorded as direct costs.

      Contributions and gifts

      CIW included in its indirect cost pools $1,643 related to gift baskets, flowers, balloons,
going-away gifts, and related items. These unallowable costs should be excluded from the
indirect cost pools. These items were recorded in travel and meetings and supplies accounts and
were therefore not excluded by CIW.

      Other costs which are not ordinary and necessary and do not benefit the government

      In order for costs to be allowable, they must be ordinary and necessary in order to be
included in the indirect cost pool. CIW included certain costs in its indirect cost pools which we
                                                                                                19
believe were not ordinary and necessary expenses and for which there was no benefit to the
government or appeared excessive. These costs included artwork, other decorative items, a
deluxe stretch limo for transportation of a speaker, late fees, and the rental of Towncars. The
total amount of these costs included in the indirect pools is $25,559. These items were recorded
in travel and meetings and supplies accounts and were therefore not excluded by CIW.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA ensure that CIW complies
with all provisions in OMB A-122 regarding the unallowability of specific cost categories.

Auditee's Response

       Travel: CIW agreed that travel expenses in excess of per diem rates need to be carefully
monitored, and isolated from the overhead pools, so that expenses exceeding per diem rates are
not allocated directly or indirectly to federal grants. Some departments interpreted "reasonable
and necessary" to mean that an agency-approved budget was a safe-harbor.

      Entertainment: CIW considered annual holiday parties and occasional other social events
for employees critical for morale. CIW felt that the $10,000 for holiday parties was well-spent,
and contributed significantly to the unique environment that is CIW.

      Alcoholic Beverages: These were isolated incidents; CIW will continue to monitor this
area carefully.

       Fines and Penalties: CIW disagreed with the auditors' assertion that $7,666 of legal fees
incurred as part of internal control procedures should be disallowed. CIW did not believe this
seems reasonable in light of the fact that the legal services were obtained in connection with an
internal audit of federal expenses (had the review not occurred and had CIW not voluntarily
reported to NSF regarding the results of the internal review, it is unlikely that the federal
government would have ever received repayment of any of the misappropriated funds). These
legal fees were not incurred under the circumstances discussed in Circular A-122 (the situation
was not precipitated by federal, state or local government and did not result in criminal, civil or
administrative proceedings at the time), and therefore should be allowed. CIW notes that if the
costs questioned had been incurred as part of an established internal control and compliance
monitoring function (i.e., CIW had an attorney on staff to do this work, and had used all its own
supplies), there would have been no question as to their allowability as recoverable expenses.

      Investment Management Expense:            CIW disagreed that the costs of investment
management staff should be disallowed as indirect costs. CIW felt that the position title is
misleading, since the individual holding the position does not, in the language of Circular A-122,
operate "....solely to enhance income from investments". Duties of the Endowment Manager
could realistically and appropriately be adopted by anyone on the Accounting Staff, since the
Endowment Manager does not function as a financial advisor, but rather as an administrative
assistant to the Director of Finance and the Board of Trustees, specializing in the area of
investments. CIW felt that there was no reason, based on any authoritative guidance, to disallow
the salary associated with this position.


                                                                                                20
      Contributions and gifts: CIW agreed that these items should not have been allocated
directly or indirectly to federal grants; similar charges will not be permitted to flow back to
federal grants in the future.

      Other costs which are not ordinary and necessary: CIW agreed that these items should not
have been allocated directly or indirectly to federal grants; similar charges will not be permitted
to flow back to federal grants in the future.

Auditor's Comments

With respect to the following:

       Travel, Alcoholic Beverages, Contributions and gifts, Other Costs not ordinary and
necessary: CIW's proposed actions will correct the weaknesses noted. We recommend that the
Directors of NSF's DGA and DACS require that CIW provide documentation that proposed
travel policies have been developed and accounting procedures have been implemented.

       Entertainment: While CIW felt that these social activities may benefit the organization in
terms of employee morale, OMB Circular A-122, Attachment B, Paragraph 14 clearly states that
these type of costs are unallowable.

        Fines and Penalties:        These legal fees were for time spent investigating the
misappropriation of federal funds and not as part of the ordinary operations of the organization.
The inisappropriation was due to a lack of adequate internal controls, and therefore, we believe
that it is not reasonable to charge these costs to the federal government directly or indirectly.

      Investment Management Expenses: CIW has investments in debt and equity securities,
real estate and limited partnerships, and other investments totaling over $480 million, which is
the priinary source of support for CIW's activities. CIW uses external managers and
partnerships to conduct investment activities. According to the job description provided to us by
CIW personnel, the Endowment Manager oversees the performance of these external functions.
The position summary of the Endowment Manager states:

       "Provides a staff capability for the Institution in the oversight and management of
       its Endowment. As such, the individual will oversee and analyze the allocation
       and performance of the multiple managers and investment vehicles the Institution
       uses in the management of the Endowment. Some of the tasks undertaken by this
       individual will be derived by requests from the Finance Committee".

      All of the essential functions enumerated in the job description relate to investment
management functions, therefore we have adjusted the indirect cost pool by the entire amount of
the Endowment Manager salary and the related fringe benefits. We believe that these duties are
consistent with the definition in OMB Circular A-122 regarding investment activities, and as
such are unallowable.




                                                                                                21
                        CARNEGIE INSTITUTION OF WASHINGTON
                         Findings and Recommendations on Compliance
                                For the year ended June 30, 2000

                                       Immaterial Deficiencies

6. Indirect Costs Charged to the Wrong Fiscal Year

       OMB Circular A-122 states that indirect costs should be allocated to the fiscal year in
which such costs were incurred and accumulated to accurately allocate indirect costs to projects.
However, CIW included in its indirect cost pools $90,262 of costs that were incurred in either a
prior fiscal year or the subsequent fiscal year (prepaid expenses) (See Schedules C for
department breakout). In one instance at GEO, a payment of $19,560 was made in June 2000 for
a service contract which covered the subsequent period (July 2000 through July 2001). In
another example at the Department of Plant Biology (PBIO), $4,500 for a repair job was
recorded in the general ledgers in June 2000 based on a purchase order. However, the supporting
documentation showed that the repair job was not performed until the subsequent fiscal year in
July 2000 and paid in October 2000. Other types of items include periodical subscriptions and
service agreements. In some cases, the subscriptions or agreements run on a calendar year basis
and therefore covered two fiscal years. In these instances, CIW should have charged 50 percent
of periodical subscription and service agreement costs to one fiscal year and the remaining 50
percent to subsequent fiscal year. When CIW fails to properly allocate expenses between fiscal
years, it can affect the accuracy of indirect costs billed to grantors and contractors. CIW did not
have adequate cut-off procedures in place to ensure that all costs were recorded in the proper
fiscal year.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement policies and procedures to ensure that all costs are recorded in the proper fiscal
year based on the receipt of goods and services.

Auditee's Response

       The vast majority of items that comprise the total $90,262 were ongoing expenses, which
continued over a period of years, and were renewed at a time other than the beginning of the
fiscal year. The most typical items in this category are periodical subscriptions and maintenance
contracts. Since such expenses represented long term relationships, the splitting of costs
between fiscal years did not impact the indirect cost rate calculation.

       In most cases, the auditors would have found similar payments in the prior fiscal year that
were not allocated to prepaid expense and applied to FY 2000; therefore, most of the $90,262
identified by the auditors did not represent potential cost savings to the federal government or
over-billing of any agency. CIW understood that failing to properly allocate expense between
fiscal years can, infrequently, impact grantors and contractors, so CIW will make every effort to




                                                                                                22
allocate material amounts to the appropriate fiscal years (one department has already re-applied
for all its periodical subscriptions, so that they all renew at the start of the fiscal year).

Auditor's Comments

      Although there may be some offset from prior year's expenses, generally accepted
accounting principles require the proper cut-off of expenses to ensure that all costs are recorded
in the proper fiscal year. Allocation of costs to correct fiscal year helps ensure that maximum
provisional rates are not excessive and projects are allocated the correct amount of indirect costs.
While we agreed that cost/benefit factors should be considered, because CIW's accounting
function is decentralized across its departments and in the absence of adequate policies and
procedures in this area, CIW cannot ensure that consistent cut-off procedures are followed. We
recommend that the Directors of NSF's DGA and DACS require that CIW provide
documentation that proposed accounting procedures have been implemented.

7. Capital Expenditures Included in Indirect Cost Pool

       OMB Circular A-122 requires that both direct costs and indirect costs exclude capital
expenditures. CIW capitalized assets with an original cost of $1,000 or more having a useful
life greater than one year. We noted that CIW included in its indirect cost pool $93,519 related
to purchases that should be capitalized (See Schedules C for department breakout). Examples
include a $1,405 computer monitor at GEO, 5 computers at $1,082 each at DTM, one $5,000 ion
mill at DTM, a $1,399 credenza and a $1,034 file cabinet at PBIO. While we found that most
capital expenditures were properly excluded, these items were overlooked by the accounting
staff at the departments.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement policies and procedures to ensure that capital expenditures are excluded from the
indirect cost pools and direct cost bases.

Auditee's Response

      CIW had not been consistent in its treatment of items purchased in the $1,000-$5,000
range. The shift from a $1,000 capitalization threshold to the current $5,000 was put in motion a
year early at DTM, which accounts for roughly $50,000 of the $93,000. As of July 1, 2001, the
$5,000 threshold had been fully implemented at all departments, so this is no longer an issue.
Transactions at the Observatories account for another $28,000. Within the past six months,
members of the ADMIN's accounting staff conducted a review of expenses and procedures at the
Observatories, and a new controller has been hired at a department.

      Inexpensive items providing more than one year of useful life (an area of confusion) will
be expensed in future proposals, and treated in the same manner as supplies. CIW will continue
to work to improve the decentralized accounting functions at the CIW's departments and
observatories.



                                                                                                 23
      CIW has attempted to adopt a conservative approach to the application and use of federal
funds, and has opted to choose financial mechanisms in its indirect cost proposals that favor the
federal agencies. In particular, the CIW uses a standard useful life of 15 years for all equipment
(the use allowance method permitted by Circular A-122 for the computation of indirect cost
rates), including highly specialized research equipment, which realistically has a much shorter
actual useful life of 6 - 8 years.

Auditor's Comments

       While the changing of the capitalization threshold would have an impact on the specific
items noted in our audit, it did not address the underlying issue that these expenditures are
adequately monitored for appropriate and consistent treatment. We recommend that CIW expand
its review of procedures to include the other departments.




                                                                                               24
                         CARNEGIE INSTITUTION OF WASHINGTON
                         Finding and Recommendation on Internal Control
                                 For the year ended June 30, 2000

                                         Material Weakness

1. Improper Application of Federal Cost Principles

       Our audit identified instances of non-compliance that were the result of internal control
deficiencies in the application of federal cost principles pertaining to indirect costs. Specifically,
CIW did not have adequate procedures and processes to administer, account for, and monitor its
indirect costs. We noted deficiencies in the proper offset of applicable credits, exclusion of
participant support costs, classification of direct and indirect costs, treatment of capital and non-
capital equipment costs, year-end cut-off procedures, and cost allowability.

      Applicable credits

       CIW did not properly apply the OMB Circular A-122 provision regarding applicable
credits, resulting in $948,794 in adjustments to the indirect cost pools. CIW received
reimbursements to offset certain indirect costs but did not reduce the indirect costs in the pools.
Adequate procedures have not been established to ensure that all applicable credits are properly
offset against indirect costs in the preparation of the indirect cost proposals.

      Participant support

        CIW inappropriately treated payments of stipends to postdoctoral associates and fellows
as participant support and excluded these amounts from the direct cost bases. CIW treated these
costs as distorting items in the indirect cost rate calculations, and therefore incorrectly excluded
$1,743,052 from the direct cost bases. These individuals, however, work on-site, utilize supplies,
are processed through the payroll system, and therefore, should be included in the direct cost
bases so they can be assigned their fair share of indirect costs.

      Direct versus indirect costs

       CIW improperly misclassified $13,522 of direct costs as indirect costs in its indirect cost
proposals. These costs related to cost overruns on several awards. Since the costs could not be
charged to a particular award (because there was no remaining money in the budget), the costs
were recorded as indirect costs when they should have been treated as additional direct costs in
the indirect cost rate calculation. The Business Manager at the department where this occurred
was not aware that this was improper. CIW does not have adequate written procedures
instructing the departmental Business Managers on the assignment of costs.




                                                                                                   25
      Exclusions of non-capital equipment

      CIW excluded $226,883 of certain non-capital equipment purchases which should have
been included in the direct cost bases. This appears to have been an oversight in the proposal
preparation process, as most of equipment purchases were recorded in an account titled "non-
capital assets." It does not appear that the proposals were adequately reviewed before
submission to NSF.

      Unallowable costs

      OMB Circular A-122 requires that unallowable costs be segregated and excluded from the
indirect cost pool. However, we found the process used by CIW to identify and exclude
unallowable costs was inadequate to ensure compliance with federal cost principles.

      CIW has a general ledger account to be used by each department to record cost exceptions.
CIW then excluded these unallowable costs from the indirect cost pools in the proposals. In
addition, at year end, the Financial Manager at ADMIN sent a questionnaire to the Business
Managers to facilitate the identification of additional unallowable costs in each department
(unallowable costs which may be recorded in other accounts). Based on the Business Managers'
responses, adjustments were made to the indirect cost pools (the items were not adjusted in the
general ledger).

      While the procedures outlined above are designed to ensure that unallowable costs are
excluded from the indirect cost pools, we found that CIW continued to include $113,909 of
unallowable costs in the indirect cost pools as follows:




      We identified several causes of this internal control weakness, including the Business
Managers not properly utilizing the cost exception account, errors in the proposal preparation
process by not properly excluding cost exceptions, and CIW not adequately understanding and
applying federal cost principles.

      Some of these unallowable costs should have been identified by the Business Managers at
the departments and recorded in the cost exception accounts. The Business Managers had been
provided guidance from ADMIN regarding unallowable costs outlined in OMB Circular A-122.


                                                                                            26
However, several of the Business Managers indicated they only use the cost exception account
for alcoholic beverages, and the year-end review process did not adequately identify all of the
unallowable costs that were recorded in other general ledger accounts.

      In other instances, the cost exception account was used by the Business Managers, but the
account was not excluded from the indirect cost rate calculations. For example, $1,765 of
unallowable costs was recorded by a Business Manager in the cost exception general ledger
account but was treated as indirect costs in the proposal. This appears to have been an oversight
by CIW.

      Regarding investment manager expenses, excess travel costs, and costs of holiday parties,
CIW did not have a policy regarding their allowability or examples of what types of items should
be considered unallowable. In addition, CIW believes that the costs of holiday parties should be
allowable as employee morale.

      Costs recorded in the wrong fiscal year

       CIW did not have proper cut-off procedures to ensure that costs were recorded in the
proper fiscal year. CIW included in its indirect cost pools $90,262 of costs that were incurred in
either a prior or subsequent fiscal year. Costs should be charged in the period in which the goods
or services were received.

      Capital expenditures

       CIW included in its indirect cost pool $93,519 related to purchases that should be
capitalized (assets with an original cost greater than $1,000 and a useful life more than one year).
These appeared to be oversights on the part of CIW staff, as most other capital purchases were
properly excluded. It does not appear that these transactions were adequately reviewed to ensure
they were recorded in the proper account.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require that CIW develop
and implement policies and procedures documenting its indirect cost procedures and processes
to ensure compliance with federal cost principles and proper application of those principles
throughout CIW.

      We also recommend that the Directors of NSF's DACS and DGA require that CIW staff
receive training on cost allowability as defined under federal cost principles and how costs
should be properly recorded.

Auditee's Response

      CIW took strong exception to the auditors' assertion that CIW "does not have adequate
internal controls to administer, account for, and monitor indirect costs to ensure compliance with
federal cost principles". Many members of CIW's business staff have attended professional



                                                                                                 27
level indirect cost seminars. In addition, CIW has increased the number of Certified Public
Accountants on the business staff over the last 2 years. At the time the FY 2000 proposal
information was compiled, there was a process in place whereby detailed transactions in specific
accounts were reviewed for errors before the information was rolled up for the indirect cost
proposal. These processes will be documented as part of the department-specific procedures to
be incorporated in the organization-wide procedures manual.

      It is CIW's opinion that the vast majority of "issues" identified by the auditors were not
issues of compliance with available guidance; rather they are issues related to the interpretation
of available guidance, which is general and, in some cases, extremely ambiguous. This changes
the focus of the discussion from internal control to the implied meaning of the federal guidance.
CIW will work with NSF to address any deficiencies it identifies in CIW's procedures.

Auditor's Comments

      Although the auditee believes many of our conclusions are due to differences in
interpretation, the majority of the compliance issues we identified were a result of internal
control weaknesses, including ineffective controls over the recording and reviewing of
unallowable costs, expense cut-off procedures, capital expenditures, and treatment of direct cost
overruns. These weaknesses can be attributed to inadequate written guidance, lack of
understanding on the part of the Business Managers, lack of adequate training in the application
of federal cost principles to CIW operations on the part of the Business Managers, and lack of
adequate review of transactions. The year-end review process did not effectively compensate for
these control weaknesses.

      We recommend that the Directors of NSF's DGA and DACS require that CIW provide
documentation that proposed changes to accounting policies and procedures have been made,
and that evidence of training and other proposed actions to correct weaknesses identified in this
report have been implemented.




                                                                                               28
    SECTION III

FINANCIAL SCHEDULES




                      29
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                           INDEPENDENT AUDITORS' REPORT

We have audited the indirect cost proposals the Carnegie Institution of Washington has proposed
as applicable to the National Science Foundation and other federal awards for the year ended
June 30, 2000. The indirect cost proposals, as presented in the schedules of indirect/direct costs
(Schedules B-1 through B-8) and the summary schedules of over/(under) recovered indirect costs
(Schedules A-1 through A-6) are the responsibility of the Carnegie Institution of Washington's
management. Our responsibility is to express an opinion on Schedules A-1 to A-6 and B-1
through B-8 based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, Government Auditing Standards issued by the Comptroller General of the
United States, and the National Science Foundation Audit Guide (September 1996). Those
standards and the National Science Foundation Audit Guide require that we plan and perform the
audit to obtain reasonable assurance about whether the financial schedules are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the financial schedules. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
financial schedule presentation. We believe our audit provides a reasonable basis for our
opinion.

The accompanying fmancial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are not
intended to be a complete presentation of financial position in conformity with accounting
principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material respects,
the indirect cost proposals (Schedules B-1 through B-8) and the resultant over/(under) recovered
indirect costs (Schedules A-1 through A-6) for the year ended June 30, 2000 on the basis of
accounting described in Note 1.

In accordance with Government Auditing Standards, we have also issued our report dated
September 9, 2002 on our consideration of the Carnegie Institution of Washington's internal
control over financial reporting and on our tests of its compliance with laws and regulations.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.



                                                                                                30
National Science Foundation
Office of Inspector General


Schedules C-1 through C-7 contain indirect costs in the amount of $1,398,996 that are reductions
to the indirect costs proposed and $2,037,315 that are net additions to the direct costs proposed
for the year ended June 30, 2000. The final determination, as to whether such costs are
allowable or unallowable, will be made by the National Science Foundation. The ultimate
outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of the Carnegie Institution of
Washington and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




September 9, 2002




                                                                                              31
                                            CARNEGIE INSTITUTION OF WASHINGTON
                        Summary Schedule of Over-Recovered Indirect Costs on National Science Foundation Awards
                                                   For the year ended June 30, 2000




(A)   Allowed indirect costs equal the audited indirect costs because the audited rate is less than the maximum provisional rate.
                      CARNEGIE INSTITUTION OF WASHINGTON
                               Summary - All Departments
Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                             For the year ended June 30, 2000
	




                                                        CARNEGIE INSTITUTION OF WASHINGTON
                                                                       Research Projects
                                  Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                                                               For the year ended June 30, 2000


	                                                                                                                               Indirect Costs	
                                                                                                                                                     Over/         Over/
                                                                                 Indirect Cost Rate                               Allowed           (Under)       (Under)
                                    Indirect Cost Approved in Award 	            Proposed/Audited	 Claimed                      ( Approved        Recovered      Recovered
     NSF Award                                                           Proposed     Audited      Schedule   to                   Rate           Per Audited   Per Allowed   Comment/
	     Number	     Award Period	         Cost Method	         Rate (A)	     Rate	        Rate	     Reference	 NSF   Per Audit	    x MTDC)	             Rate	         Rate	       Notes


    No active awards during the audit period.




    See accompanying notes to these financial schedules.
                                                 CARNEGIE INSTITUTION OF WASHINGTON
                           Departm                            ent of Terrestrial Magnetism
                           Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                                                        For the year ended June 30, 2000




Comments/Notes:
MTDC - Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract costs.)
(A) Negotiated approved indirect cost rate for FY2000 is 75.00%. CIW proposed a lower rate in the grant budgets to be more competitive.
(B) Indirect costs claimed based upon application of a 56.65% rate, which is less than the maximum provisional rate of 57%. As of June 30, 2000, funds
     remained available in the award budget to claim these under-recovered costs.
(C) Indirect costs claimed based upon application of a 56.71 % rate, which is less than the maximum provisional rate of 57%. As of June 30, 2000, funds
     remained available in the award budget to claim these under-recovered costs.

See accompanying    notes to these financial schedules
                                                       CARNEGIE INSTITUTION OF WASHINGTON
                                                                   Geophysical Laboratory
                                 Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                                                              For the year ended June 30, 2000




Comments/Notes:

MTDC - Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract costs.)
(A)   Negotiated approved indirect cost rate for FY2000 is 75.00%. CIW proposed a lower rate in the grant budgets to be more competitive.
(B)   Indirect costs claimed based upon application of a 14.94% rate which is less than the maximum provisional rate of 15%. Claimed indirect costs excluded stipends in the MTDC base,
      which has been included in the audited amounts. As of June 30, 2000, funds remained available in the award budget to claim these under-recovered costs.
(C)   Indirect costs claimed based upon application of a 12% rate, which is less than the maximum provisional rate of 59%. Grant period expired April 30, 2000, so recovery of under-
      recovered indirect costs is not available as of June 30, 2000.
(D)   Claimed indirect costs excluded stipends in the MTDC base, which has been included in the audited amounts. As of June 30, 2000, funds remained available in the award budget to claim
      these under-recovered costs.
(E)   Includes an over-recovery of $1,955 for 15 awards and an under-recovery of ($7,808) for 3 awards, for a net of $(5,853).
See accompanying notes to these financial schedules.
                                               CARNEGIE INSTITUTION OF WASHINGTON
                                                         Department of Embryology
                         Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                                                      For the year ended June 30, 2000




Comments/Notes:
MTDC = Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract costs.)
(A)   Negotiated approved indirect cost rate for FY2000 is 59.00%. CIW proposed a lower rate in the grant budgets to be more competitive.
(B)   Allowed indirect costs equal the audited indirect costs because the audited rate is less than the maximum provisional rate.
(C)   The Research Experiences for Undergraduates portion of this grant includes student stipends and is limited to a maximum provisional rate
      of 25%.
                                               CARNEGIE INSTITUTION OF WASHINGTON
                                                        Department of Plant Biology
                         Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                                                      For the year ended June 30, 2000




Comments/Notes:
MTDC = Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract costs.)
(A)   Negotiated approved indirect cost rate for FY2000 is 73.00%. CIW proposed a lower rate in the grant budgets to be more competitive.
(B)   Indirect costs claimed based on application of a 58% rate, which is less than the maximum provisional rate of 59%. As of June 30, 2000,
      funds remained available in the award budget to claim these under-recovered costs.




See accompanying notes to these financial schedules.
                                               CARNEGIE INSTITUTION OF WASHINGTON
                                                                Observatories
                         Schedule of Over or (Under) Recovered Indirect Costs on National Science Foundation Awards
                                                      For the year ended June 30, 2000




Comments/Notes:
MTDC = Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract costs.)
(A)   Negotiated approved indirect cost rate for FY2000 is 75.00%. CIW proposed a lower rate in the grant budgets to be more competitive.
(B)   Indirect costs claimed based upon application of a 41% rate, which is less than the 57% maximum provisional rate. As of June 30, 2000,
      funds remained available in the award budget to claim these under-recovered costs.
(C)   Grant split with Depar tment of Terrestrial Magnetism, whose rate was used in the award.
	




                                                                                 Schedule B-la

                           CARNEGIE INSTITUTION OF WASHINGTON
                                        Research Projects
                                   Schedule of Indirect Costs
                                For the year ended June 30, 2000


                                                       (A)        Auditors'
                                                    Proposed   Adjustments and     Allowable
	                    Expenses	                       Costs	     Eliminations	        Costs	




    (A) The amounts agree with the indirect cost rate proposal prepared by CIW. The total
        costs before auditors' adjustments and eliminations agree with CIW's books of account.

    (B) Administration Department costs are allocated to each Department based on a computed
        Administrative Rate (Schedule B-7).




    See accompanying notes to these financial schedules.
                                                                                            40
                                                                                Schedule B-1b

                       CARNEGIE INSTITUTION OF WASHINGTON
                                    Research Projects
                                 Schedule of Direct Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                           41
                                                                              Schedule B-2a
                       CARNEGIE INSTITUTION OF WASHINGTON
                           Department of Terrestrial Magnetism
                               Schedule of Indirect Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

(B)   Administration Department costs are allocated to each Department based on a computed
      Administrative Rate (Schedules B-7).




See accompanying notes to these financial schedules.
                                                                                         42
                                                                                Schedule B-2b

                       CARNEGIE INSTITUTION OF WASHINGTON
                           Department of Terrestrial Magnetism
                                Schedule of Direct Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                           43
                                                                               Schedule B-3a

                       CARNEGIE INSTITUTION OF WASHINGTON
                                 Geophysical Laboratory
                               Schedule of Indirect Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

(B)   Administration Department costs are allocated to each Department based on a computed
      Administrative Rate (Schedules B-7).




See accompanying notes to these financial schedules.
                                                                                         44
                                                                                Schedule B-3b

                       CARNEGIE INSTITUTION OF WASHINGTON
                                 Geophysical Laboratory
                                Schedule of Direct Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                           45
                                                                                Schedule B-4a

                       CARNEGIE INSTITUTION OF WASHINGTON
                              Department of Embryology
                               Schedule of Indirect Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

(B)   Administration Department costs are allocated to each Department based on a computed
      Administrative Rate (Schedules B-7).




See accompanying notes to these financial schedules.
                                                                                           46
                                                                               Schedule B-4b

                       CARNEGIE INSTITUTION OF WASHINGTON
                              Department of Embryology
                                Schedule of Direct Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                          47
                                                                               Schedule B-5a

                       CARNEGIE INSTITUTION OF WASHINGTON
                              Department of Plant Biology
                               Schedule of Indirect Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

      Administration Department costs are allocated to each Department based on a computed
      Administrative Rate (Schedules B-7).




See accompanying notes to these financial schedules.
                                                                                          48
                                                                                Schedule B-5b

                       CARNEGIE INSTITUTION OF WASHINGTON
                              Department of Plant Biology
                                Schedule of Direct Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                           49
                                                                                Schedule B-6a

                       CARNEGIE INSTITUTION OF WASHINGTON
                                      Observatories
                               Schedule of Indirect Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

(B)   Administration Department costs are allocated to each Department based on a computed
      Administrative Rate (Schedules B-7).




See accompanying notes to these financial schedules.
                                                                                           50
                                                                                Schedule B-6b

                       CARNEGIE INSTITUTION OF WASHINGTON
                                      Observatories
                                Schedule of Direct Costs
                            For the year ended June 30, 2000




(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                           51
                                                                                Schedule B-7a

                       CARNEGIE INSTITUTION OF WASHINGTON
                           Administration Department Costs*
                            For the year ended June 30, 2000




*     Administration Department costs exclude the Research Projects and Fundraising, which are
      treated as direct costs. The remaining Administration Department costs are allocated back
      to the departments through the administrative allocation. This allocation is based on the
      computed Administration Department rate applied against each department's direct and
      indirect costs.

(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.




See accompanying notes to these financial schedules.
                                                                                           52
                                                                                  Schedule B-7b

                       CARNEGIE INSTITUTION OF WASHINGTON
                    Schedule of Administration Department Allocation Base*
                                For the year ended June 30, 2000




* The Administration Depaitment allocation base consists of all the direct, indirect, and
  unallowable costs at all of the departments combined. This is to ensure that all costs, including
  unallowables are charged their fair share of the Administration Departm ent costs.

(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

(B)   Unallowable costs identified by CIW and included in the allocation base per the indirect cost
      proposal.




See accompanying notes to these financial schedules.
                                                                                              53
                                                                                 Schedule B-8a

                       CARNEGIE INSTITUTION OF WASHINGTON
                            Schedule of Fundraising Costs*
                            For the year ended June 30, 2000




* Fundraising costs are incurred at the Administration Department and treated as direct costs for
  purposes of calculating the Administration Department rate. The effect is that Fundraising
  costs are assigned their fair share of Administration Department costs.

(A)   The amounts agree with the indirect cost rate proposal prepared by CIW. The total costs
      before auditors' adjustments and eliminations agree with CIW's books of account.

(B)   Administration Department costs are allocated to each Depaitment based on a computed
      Administrative Rate (Schedules B-7).




See accompanying notes to these financial schedules.
                                                                                             54
	




                                                                                          Schedule C

                          CARNEGIE INSTITUTION OF WASHINGTON
                         Schedule of Auditors' Adjustments and Eliminations
                                  For the year ended June 30, 2000

    The amounts as proposed by CIW in its indirect cost proposal for the year ended June 30, 2000
    (Schedules B-1 through B-8) required various adjustments and eliminations to the indirect cost
    pool or direct cost base. These adjustments and/or eliminations are presented in Schedules B-1
    through B-8. On the following pages in Schedules C-1 through C-7 these adjustments and/or
    eliminations are detailed. Presented below is a brief summary of the type of adjustment and/or
    elimination along with the relevant criteria.

       Adjustment and/or Elimination                               Criteria

    Applicable credits for building OMB Circular A-122 requires that "to the extent that
    income and other costs were not such credits accruing or received by the organization
    offset against indirect costs.  relate to allowable cost, they shall be credited to the
                                    Federal Government. "Applicable credits is defined by
                                    this circular as those receipts, or reduction of
                                    expenditures which operate to offset or reduce expense
                                    items that are allocable to awards as direct or indirect
                                    cost.

    Capitalizable costs were included in OMB Circular A-122 states that both direct costs and
    indirect cost pool.                  indirect costs shall exclude capital expenditures.

    Direct program costs were included    OMB Circular A-122 defines direct costs as those that
    in the indirect cost pool.            can be identified specifically with a particular final cost
                                          objective.    In addition, under "Losses on other
                                          awards", A-122 states that excess of costs over income
                                          on any award is unallowable as a cost of any other
                                          award.




                                                                                                   55
                                                                            Schedule C (Cont.)

                      CARNEGIE INSTITUTION OF WASHINGTON
                  Schedule of Auditors' Adjustments and Eliminations (Cont.)
                               For the year ended June 30, 2000


   Adjustment and/or Elimination                              Criteria


Unallowable     travel,   investment Federal cost principles state that travel costs should be
management, fines and penalties, allowable if reasonable which is determined by
entertainment, and other items considering federal and state laws and regulations
erroneously included in indirect cost including Standard Government Travel Regulations,
pool.                                 and terms and conditions of the award.

                                      OMB Circular A-122 states that costs of the following
                                      are unallowable.
                                      • Amusement, diversion, social activities, and
                                          ceremonials.
                                      • Alcoholic beverages are expressly unallowable.
                                      • Costs of investment counsel and staff and similar
                                          expenses incurred solely to enhance income from
                                          investments.
                                      • Contributions and donations by the organization to
                                          others.
                                      • Fines and penalties from violations or failure to
                                          comply with laws and regulations are unallowable.
                                          FAR 31.205-15 includes in its definition offines and
                                          penalties costs incurred relating to the mischarging
                                          of costs on government contracts are also excluded
                                         from the indirect cost pool.


Costs not chargeable to FY 2000.      OMB Circular A-122 states that the base period for the
                                      allocation of indirect costs is the period in which such
                                      costs are incurred and accumulated for allocation to
                                      work performed in the period.




                                                                                            56
	




                                                                               Schedule C (Cont.)

                         CARNEGIE INSTITUTION OF WASHINGTON
                     Schedule of Auditors' Adjustments and Eliminations (Cont.)
                                  For the year ended June 30, 2000

       Adjustment and/or Elimination                              Criteria


    Stipends attracting indirect costs OMB Circular A-122 states that the distribution base
    were excluded from direct cost base. for indirect costs may be total direct costs (excluding
                                         capital expenditures and other distorting items, such as
                                         subcontracts or subgrants). NSF's Grant Proposal
                                          Guidance includes expenses related to grad students
                                         and postdoctoral associates as components of salaries
                                         and wages, not participant support.

    Non-capital equipment erroneously Federal cost principles state that the distribution base
    excluded from direct cost base.   may be total direct costs (excluding capital
                                      expenditures and other distorting items, such as major
                                      subcontracts or subgrants), direct salaries and wages,
                                      or other base, which results in an equitable distribution.
                                      Costs that do not meet the $1,000 capitalization
                                      threshold should be included in the direct cost base.




                                                                                               57
        CARNEGIE INSTITUTION OF WASHINGTON
                   Summary - All Departments
Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                 For the year ended June 30, 2000
        CARNEGIE INSTITUTION OF WASHINGTON
                  Summary - All Departments
Schedule of Auditors' Adjustments and Eliminations - Direct Costs
               For the year ended June 30, 2000
	




                                                                        Schedule C-la

              CARNEGIE INSTITUTION OF WASHINGTON
                              Research Projects
      Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                      For the year ended June 30, 2000


                                                           Category of Expense
    Adjustment and Elimination                   Total       Administrative
           Explanation                          Amount          Allocation




                                                                                  60
	




                                                                                       Schedule C-1 b

                           CARNEGIE INSTITUTION OF WASHINGTON
                                           Research Projects
                   Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                                   For the year ended June 30, 2000


	                                                                      Category of Expense
                Adjustment and Elimination                  Total          Participant
	                      Explanation	                        Amount	           Support	

    Stipends attracting indirect costs were excluded        $84,080         $84,080
    from direct cost base.

    Non-capital equipment erroneously excluded from
    direct cost base.

    Direct program costs were included in the indirect
    pool.

                                                            $84,080         $84,080




                                                                                                  61
         CARNEGIE INSTITUTION OF WASHINGTON
              Department of Terrestrial Magnetism
Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                 For the year ended June 30, 2000
        CARNEGIE INSTITUTION OF WASHINGTON
              Department of Terrestrial Magnetism
Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                For the year ended June 30, 2000
         CARNEGIE INSTITUTION OF WASHINGTON
                      Geophysical Laboratory
Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                 For the year ended June 30, 2000
	




                                                                                       Schedule C-3b

                          CARNEGIE INSTITUTION OF WASHINGTON
                                        Geophysical Laboratory
                   Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                                  For the year ended June 30, 2000


	                                                                       Category of Expense
              Adjustment and Elimination                   Total            Participant
	                    Explanation	                         Amount	             Support	

    Stipends attracting indirect costs were excluded    $ 215,048           $215,048
    from direct cost base.

    Non-capital equipment erroneously excluded
    from direct cost base.

    Direct program costs were included in the
    indirect pool.

                                                        $ 215 0            $ 215,048




                                                                                                 65
        CARNEGIE INSTITUTION OF WASHINGTON
Department                      of Embryology
Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                 For the year ended June 30, 2000
	




                                                                                       Schedule C-4b

                          CARNEGIE INSTITUTION OF WASHINGTON
                                      Department of Embryology
                   Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                                   For the year ended June 30, 2000


	                                                                          Category of Expense
                Adjustment and Elimination                   Total                    Participant
	                      Explanation	                         Amount	      Equipment	     Support


    Stipends attracting indirect costs were excluded       $709,478       $              $709,478
    from direct cost base.

    Non-capital equipment erroneously excluded from             2,710         2,710
    direct cost base.

    Direct program costs were included in the indirect
    pool.

                                                           $712,188       $2,710         $709,478




                                                                                                 67
        CARNEGIE INSTITUTION OF WASHINGTON
                   Department of Plant Biology
Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                 For the year ended June 30, 2000
                                                                    Schedule C-5b

       CARNEGIE INSTITUTION OF WASHINGTON
                  Department of Plant Biology
Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                For the year ended June 30, 2000




                                                                              69
         CARNEGIE INSTITUTION OF WASHINGTON
                           Observatories
Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                 For the year ended June 30, 2000
Schedule C-6b




          71
             CARNEGIE INSTITUTION OF WASHINGTON
                        Administration Department
    Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                     For the year ended June 30, 2000




N
        CARNEGIE INSTITUTION OF WASHINGTON
                           Fundraising
Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                For the year ended June 30, 2000
	




                        CARNEGIE INSTITUTION OF WASHINGTON
                               Notes to Financial Schedules
                             For the year ended June 30, 2000


    1.     Summary of Significant Accounting Policies:

            The accompanying financial schedules have been prepared in conformity with NSF
    instructions. Schedules B-1 through B-8 have been prepared from the IDCP prepared by
    the Carnegie Institution of Washington, and Schedules A-1 through A-6 have been
    prepared based upon the results of the audit of Schedules B-1 through B-8. The schedules
    do not present the complete financial position of the Carnegie Institution of Washington.
    In accordance with NSF instructions, there is no statement of financial position, statement
    of activities, or statement of cash flows.

    2.     Income Taxes:

           Carnegie Institution of Washington is a private nonprofit corporation, incorporated
    in Washington, DC by Act of Congress. Carnegie Institution of Washington is exempt
    from income taxes under Section 501(c)(3) of the Internal Revenue Code.




                                                                                          74
    SECTION IV

AWARDEE'S RESPONSE




                     75
Auditee's Summary of Response:

       The fact that CIW could have "substantially over-recovered indirect costs on its NSF
contracts" is not relevant. Of the roughly $7 million provided by NSF for Carnegie
research, the absolute over-recovery calculated by Oppenheim ($11,332), constitutes only
0.16% of the total funding from NSF. Furthermore, the NET amount of over-recovery
identified by Oppenheim, on Schedule A-Summary 2, comes to $1,581, or.0226% of NSF
funding for the Institution.
       Carnegie has attempted to adopt a conservative approach to the application and use
of federal funds, and has opted to choose financial mechanisms in its indirect cost
proposals that favor the agencies. In particular, the Institution uses a standard useful life of
15 years for all equipment (the use allowance method permitted by Circular A-122 for the
computation of indirect cost rates), including highly specialized research equipment, which
realistically has a much shorter actual useful life of 6 - 8 years. In addition, the Institution
has excluded the non-cash component of postretirement benefit costs, providing further
cost savings to the federal government. If Carnegie was to make adjustments to its 2000
indirect cost rate proposal to reflect these two items alone, it would be clear that Carnegie
has not over billed any government or private agency. In light of these facts, we feel that
the tone of the report is inconsistent with the actual circumstances.

Response to Material Non-Compliance point 1:

       Based on all available expertise and documentation, CIW treated rental revenue and
expenses appropriately in most cases. The exception involves revenues attributable to
operations at the Observatories field site in Chile (please see "Auditee Response" in
"Applicable Credits"). Essentially, Oppenheim insists that Circular A-122 dictates that all
rental revenues be netted against all overhead costs. The language of A-122 is non-specific
and ambiguous about the revenue streams which the government finds related to its grants.
None of the professionals we discussed this report with, could site guidance from any of
the Circulars to support the approach to revenue suggested by Oppenheim. CIW believes
that the Oppenheim auditors clearly misinterpreted the Credits Cost Principle provision
which states "The term applicable credits refers to those receipts, or reductions of
expenditures which operate to offset or reduce expense items that are allocable as direct or
indirect costs. Typical examples of such transactions are: purchase discounts, rebates or
allowances, recoveries or indemnities on losses, insurance refunds, and adjustments of
overpayments or erroneous charges. To the extent that such credits relate to allowable
costs they shall be credited to the Government either as a cost reduction or cash refund as
appropriate." The clause identifies the types of credits to be considered; it is important to
recognize that these "credits" are all cost-related and represent the restatement or
adjustment of allowable costs incurred.
      We interpret this to mean that the applicable credit for leased spaces represents the
elimination of the cost applicable to leased spaces. The provisions of subparagraph 5, b.
under Applicable Credits, in A-122 do not apply. The term applicable credits cannot be
extended to all of the revenue resulting from the leasing of space. The crediting of the
expenses allocated to leased spaces meets the letter and the spirit of the Cost Principle.




                                                                                             76
Response to Material Non-Compliance point 2:

       We disagree with the position Oppenheim has taken regarding CIW's fellows. The
Institution received its designation as a section 170 (b) (1) (A) (ii) educational organization
from the IRS in February of 1971, and has maintained this status ever since. As
Oppenheim's own text states, Circular A-122 provides for the exclusion of stipends and
subsistence allowances for trainees. Payments Carnegie makes to its fellows are designed
to support these individuals as they gain the additional experience they need in order to
succeed as researchers or professors at other organizations. Typically, a fellow is only at
Carnegie for two or three years, and then moves on to another organization. An individual
seeks a fellowship at Carnegie with a particular staff member, because that individual
wants training in a specific area, and seeks a particular body of knowledge. Once an
individual receives a fellowship from Carnegie, he/she does not receive the supervision that
employees do, but operates on a conferring basis with the staff member he/she has chosen.
Fellows do not receive retirement benefits, life insurance coverage or disability, and they
do not earn paid annual leave. Oppenheim's position that fellows are de facto employees is
not consistent with any of the facts and circumstances (fellows do not receive wages or
salary and are not part of the direct labor allocation base).

Response to Material Non-Compliance point 3:

     Please see discussion in "Auditee's Response" section under the heading
Misclassification of Direct Costs as Indirect Costs.

Response to Material Non-Compliance point 4:

      CIW has not been consistent in its treatment of items purchased in the $1,000-$5,000
range. The shift from a $1,000 capitalization threshold to the current $5,000 was put in
motion a year early at DTM, causing many of the inconsistencies noted by Oppenheim (as
of 7/1/01, the $5,000 threshold had been fully implemented at all departments, so this is no
longer an issue). Inexpensive items providing more than 1 year of benefit (an area of
confusion) will be expensed in future proposals, and treated in the same manner as
supplies.

Response to Material Non-Compliance point 5:

      Oppenheim claims to have identified $113,909 of unallowable costs in the indirect
cost pools. We agree that the results of the Oppenheim review suggest that additional
training and oversight are necessary in the area of allowable indirect costs; however, we
feel that almost half the costs identified by Oppenheim are actually allowable under the
current circulars and agency guidelines. The most significant item identified by
Oppenheim in this category is the salary of the Endowment Manager. The position title is
misleading, since the individual holding the position does not, in the language of Circular
A-122, operate "....solely to enhance income from investments".             Duties of the
Endowment Manager could realistically and appropriately be adopted by anyone on the
Accounting Staff, since the Endowment Manager does not function as a financial advisor,
but rather as an administrative assistant to the Director of Finance and the Board of
Trustees, specializing in the area of investments. While Oppenheim may find that


                                                                                            77
"Endowment Manager" is a poorly advised position title, there is no reason, based on any
authoritative guidance, to disallow the salary associated with this position.
       In the area of "employee morale costs", the vagueness of available guidance from
agencies and the federal government makes it almost impossible for well-meaning users to
correctly apply the cost principles. Many of our colleagues are frustrated and confused by
the actions of federal auditors who challenge the expense of coffee and donuts at meetings.
We are similarly confused over the attempt to disallow such items, provided on a non-
routine basis at staff meetings. In good faith, Carnegie has also included a portion of the
expense for holiday parties and trustee meetings in the overhead rate. We would welcome
clear and concise written guidance from NSF in the areas of employee morale costs and
trustee expenses.

Response to Non-Material Non-Compliance items:

       The vast majority of items that comprise the total $90k are ongoing expenses, which
continue over a period of years, and renew at a time other than the beginning of the fiscal
year. The most typical items in this category are periodical subscriptions and maintenance
contracts. Since such expenses represent long term relationships, the splitting of costs
between fiscal years does not impact the indirect cost rate calculation. In most cases,
Oppenheim would have found similar payments in the prior fiscal year that were not
allocated to prepaid expense and applied to FY 2000; therefore, most of the $90k identified
by Oppenheim does not represent potential cost savings to the federal government or over-
billing of any agency. We understand that failing to properly allocate expense between
fiscal years can, infrequently, impact grantors and contractors, so we will make every effort
to allocate material amounts to the appropriate fiscal years (one department has already re-
applied for all its periodical subscriptions, so that they all renew at the start of the fiscal
year).
       Capital items were included in the indirect cost pool at one department as the result
of early implementation of a higher capitalization threshold. Please see "Summary of
Auditee's Response".

Response to Internal Control Weakness:

      We take strong exception to Oppenheim's assertion that Carnegie "does not have
adequate internal controls to administer, account for, and monitor indirect costs to ensure
compliance with federal cost principles". Many members of Carnegie's business staff have
attended professional level indirect cost seminars sponsored by NACUBO or one of the
state accounting societies. In addition, Carnegie has increased the number of Certified
Public Accountants on the business staff over the last 2 years. At the time the FY 2000
proposal information was compiled, there was a process in place whereby detailed
transactions in specific accounts were reviewed for errors before the information was rolled
up for the indirect cost proposal. These processes are still in place, and will be documented
as part of the department-specific procedures to be incorporated in the organization-wide
procedures manual.
      It is our opinion that the vast majority of "issues" identified by Oppenheim are not
issues of compliance with available guidance; rather they are issues related to the
interpretation of available guidance, which is general and, in some cases, extremely




                                                                                            78
ambiguous. This changes the focus of the discussion from internal control to the implied
meaning of the federal guidance.
     With respect to Oppenheim's audit, we note the following:
     1)         If the three major areas of disagreement between Carnegie and Oppenheim
                (P Street rental revenue, HHMI rental revenue, fellow support) are resolved
                in a manner consistent with Carnegie's interpretation of the federal
                guidance, then by Oppenheim's own calculations, Carnegie would have
               under-billed NSF. We strongly believe that we are correct in our reading of
               the federal guidance in these areas. Furthermore, indirect cost rates for
               departments have been capped by NSF or Carnegie. Carnegie has never
               applied an indirect cost rate in excess of 75% for the Observatories, or 60%
               for any of the other departments. The largest single element that Carnegie
               agrees was inappropriately handled is the Magellan Consortium operating
               revenue at the Observatories. The amount of the credit would NOT have
               had any impact on the rate that Carnegie applies to grants at the
               Observatories, nor would it have affected the 75% cap formally adopted by
               NSF in 2000.
     2)        Oppenheim only sought out interpretations that could be favorably applied
               with respect to their status as a government auditor. At no time did
               Oppenheim look into the conventions which Carnegie applied that favored
               the government, such as the application of the 6% use allowance in lieu of
               full-cost depreciation or the exclusion of the non-cash portion of
               postretirement benefits. In the case of postretirement benefits, there is no
               question that an additional $348,000 should be added to the indirect cost
               rate numerator in order to fully cost out services to the government. If the
               purpose of Oppenheim's audit is to determine the appropriateness/fairness
               of Carnegie's overhead rates, then full cost depreciation and post retirement
               benefits should be included in the analysis.
     3)        One of the hallmarks of scientific investigation at Carnegie is unfettered
               access to exceptional resources for staff scientists, so that the process of
               investigation and discovery is unimpeded. For example, the department
               with the highest indirect cost rate, the Observatories, has extraordinary
               capital needs; technology is expanding the "field of vision" for astronomers
               so rapidly, that any organization which expects to maintain a "cutting edge"
               astronomy department must constantly invest in new instruments and
               facilities. Carnegie has just completed a twin telescope facility called
               "Magellan", which is considered a premiere observing facility that provides
               unique opportunities for interferometry. Including the Magellan telescopes,
               there are a total of four telescopes at the Observatories' field site in Chile.
               Carnegie has approximately 12 staff astronomers and 12 fellows pursuing
               postdoctoral research in astronomy. The observer/telescope ratio is
               uniquely low, and provides each Carnegie astronomer with exceptional
               opportunities, and in turn, provides any contributor to Carnegie's
               astronomy operations with significant leverage for each dollar of funding
               provided. Facilities are similarly available to scientists working in other
               Carnegie departments. This is the environment which should provide the
               context by which to judge overhead rates.




                                                                                           79
      With respect to other comments from Oppenheim, the Institution is working on an
organization-wide procedures manual, which addresses the issue of written, formal
procedures raised in this report. We will continue to encourage administrative and
scientific staff alike to attend training classes in order to gain a greater understanding of the
federal cost principles.
      We wish to convey our strong desire to work with NSF in whatever way possible to
resolve differences in the interpretation of federal regulations, and provide the agency with
assurance that Carnegie is accurately and fairly calculating the indirect costs it is
apportioning to federal projects. We consider NSF a key partner in our continuing efforts
to extend the frontiers of scientific knowledge; our relationship with NSF stretches back to
the time of Vannevar Bush, former Carnegie President, whose efforts led directly to the
establishment of the National Science Foundation. We welcome the opportunity to work
with NSF to create a body of documentation which will serve as a road map to prevent
misunderstandings in future years.


Auditee's Response to Compliance Findings:

1. Applicable Credits Not Properly Offset

       General assertions made by Oppenheim staff about the treatment of rental revenue
 are not echoed by any of the professionals we consulted. We believe that it was entirely
 inappropriate for the government to seek to recover revenues in excess of actual expenses
related to rental activities. In discussions with our professional colleagues, we found none
who would support the Oppenheim approach to the treatment of rental revenue and
 expense.
       The language from A-122 to which Oppenheim refers ("'to the extent that such
credits accruing or received by the organization relate to allowable costs, they shall be
credited to the Federal Government"') does not reflect the intent of the entire clause. The
clause identifies the types of credits to be considered (i.e., purchase discounts, rebates or
allowances, recoveries or indemnities on losses, insurance refunds, and adjustments or
overpayments or erroneous charges). It is important to recognize that these "credits" are all
cost-related and represent the restatement or adjustment of allowable costs incurred. If the
intent of regulators was to recover rental revenue in excess of expense, why isn't this
clearly stated? If the treatment of net rental income is to be consistent and if Oppenheim's
approach is correct, the government would be willing to absorb losses on rental activities;
however, this is not the case.
       We feel that we have treated the income and expense associated with rental of the P
Street facility (the auditorium, and excess office space) appropriately in the context of the
Institution's indirect cost rate submission. We also maintain that the expense and income
associated with the use of Carnegie's Baltimore facility by Howard Hughes Medical
Institute staff is appropriately treated.
       Oppenheim staff maintain that the portion of Nagoya revenue allocated to
Administration should be netted with expenses at P Street, in order to reduce the
administrative rate. The allocation of Nagoya's fixed fee to headquarters reflects an
internal agreement to address cash flow and budget issues, and does not reflect the origin of
expenses related to Nagoya operations. The appropriate match for all Nagoya revenue, is
really the cost of running Carnegie's telescope facility in Las Campanas, Chile.


                                                                                             80
       We agree that some of the revenue items mentioned in "Applicable Credits Not
Properly Offset" were inadvertently left in the wrong categories when the final rate
submission for FY 2000 was compiled. The refund of Workers' Compensation expense
from a prior year was overlooked, and should have been netted against administrative
expense for FY 2000. Likewise, the $20,000 supplement from Howard Hughes Medical
Institute for the cost of reference books should have been netted against other library costs
in the Department of Embryology indirect cost pool. The last item, revenue contributed by
Consortium members to help cover the operating costs of the Magellan telescopes, should
have been netted with indirect expenses generated by operations in Chile before the
indirect cost rate for the Observatories was computed.
       Several members of the accounting staff have already received training in the
computation of indirect costs; we will encourage all business staff to seek training relevant
to Circular A-122, including department personnel who code expenses to the general
ledger. We will also step up review of revenues, to ensure that all applicable credits (those
that are not in question, such as rent receipts in excess of cost) are applied to the pool of
indirect expenses.
    With regard to Oppenheim's comments that CIW staff did not understand the errors
caused by overlapping the internal cost allocations used for financial reporting with cost
allocations required in compliance with federal cost principles, we believe that we
accurately, fairly, and appropriately implemented the guidance provided by the federal
government and NSF.

2. Participant Support Costs Improperly Excluded

       The issue of stipends has been discussed in the section entitled "Summary of
Auditee's Response.
       Oppenheim's comment concerning the difference between "the letter of NSF
guidance" and the "intent of the guidance" underscores a significant dilemma for CIW and
all other contractors and recipients of federal funds. Rules and regulations are intended to
be applied as written and are not to be left to the subjective interpretation of the contractor.
If NSF intended some other interpretation it would have drafted it in the written regulation.
Additionally, Oppenheim's comment refers to "distorting costs" which are not defined in
any of the guidance available to CIW, and therefore contribute further to a sense of
confusion.




                                                                                             81
Officer that the particular expenses could not be charged directly to the grant. There does
not appear to be anything out of order here; the staff member was exercising oversight
responsibility with regard to his grants, and an expense that could not be charged directly to
the grant was moved to a general endowment overhead cost center. The fact that an
expense benefits a department so broadly that it cannot be charged directly to a particular
grant does not make it unallowable, a point which seems to have been lost in the discussion
of the $4,422 adjustment.
       The balance of the $25,133 is composed of items in two categories previously
discussed (items not capitalized by DTM, due to early implementation of $5,000
capitalization threshold; and cost exceptions inadvertently shifted to the wrong column on
worksheets used by Carnegie to develop its 2000 indirect cost rates).

4. Equipment Purchases Improperly Excluded

      We agree that these items should be expensed in the future, and included in the
denominator of the indirect cost rate for each department. We clearly explained to
Oppenheim personnel that the pattern for treating "non-capital assets" evolved from the
fact that Carnegie expected multiple years of use from these low dollar purchases. We
agree that the treatment is non-standard, and will correct it.

5. Unallowable Costs Included in the Indirect Cost Pool

      Travel: We agree that travel expenses in excess of per diem rates need to be carefully
monitored, and isolated from the overhead pools, so that expenses exceeding per diem rates
are not allocated directly or indirectly to federal grants. From CIW's point of view, it
would be very helpful if federal guidelines would clearly state that per diem rates, not
approved budgets, are the standard for reasonableness (some departments interpreted
"reasonable and necessary" to mean that an agency-approved budget was a safe-harbor).

      Entertainment: We do consider annual holiday parties and occasional other social
events for employees critical for morale. If the government feels that no level of expense
associated with social events (designed to foster collegiality and team spirit) is appropriate,
then federal/agency guidance discussing employee morale costs should clearly state this.
We feel that the $10,000 for holiday parties was well-spent, and contributed signifrcantly to
the unique environment that is Carnegie. We will be glad to comply with whatever concise
and illustrative documentation is developed by NSF to guide federal recipients in the area
of employee morale costs.

      Alcoholic Beverages: These were isolated incidents; we will continue to monitor this
area carefully.

      Fines and Penalties: Oppenheim asserts that $7,666 of legal fees incurred as part of
internal control procedures should be disallowed. This does not seem reasonable in light of
the fact that the legal services were obtained in connection with an internal audit of federal
expenses (had the review not occurred and had Carnegie not voluntarily reported to NSF
regarding the results of the internal review, it is unlikely that the federal government would
have ever received repayment of any of the misappropriated funds). These legal fees were
not incurred under the circumstances discussed in Circular A-122 (the situation was not


                                                                                            82
precipitated by federal, state or local government and did not result in criminal, civil or
administrative proceedings at the time), and therefore should be allowed.              It seems
inconsistent, given the specificity of some passages in Circular A-122, to expect federal
recipients to intuit the full range of possibilities that the federal government intended when
writing the text of the Circular. We note that if the costs questioned had been incurred as
part of an established internal control and compliance monitoring function (i. e., Carnegie
had an attorney on staff to do this work, and had used all its own supplies), there would
have been no question as to their allowability as recoverable expenses.
      Since the date representatives arrived from the National Science Foundation's Office
of Inspector General to do their own review of potential misappropriations, Carnegie has
carefully isolated all costs (legal fees, staff time, copying services, etc.) linked to the
review in order to ensure that none of the expense is inadvertently charged back to the
federal government or private grantors.

     Investment Management Expense: As explained above in "Summary of Auditee's
Response".

      Contributions and gifts: We agree that these items should not have been allocated
directly or indirectly to federal grants; similar charges will not be permitted to flow back to
federal grants in the future.

      Other costs which are not ordinary and necessary: We agree that these items should
not have been allocated directly or indirectly to federal grants; similar charges will not be
permitted to flow back to federal grants in the future.

6. Indirect Costs Charged to the Wrong Fiscal Year

       Please see previous comments in "Summary of Auditee's Response" regarding the
cutoff of fiscal year expenses. We will comply with the recommendations NSF provides in
this area.

7. Capital Expenditures Included in Indirect Cost Pool

      As noted previously in the Summary of Auditee's Response, DTM implemented a
$5,000 capitalization threshold ahead of the rest of the Institution, which accounts for
roughly $50,000 of the $93,000. Transactions at the Observatories account for another
$28,000. Within the past 6 months, members of the P Street accounting staff have
conducted a review of expenses and procedures at the Observatories, and a new controller
has been hired for the depar tment . We will continue to work to improve the decentralized
accounting functions at the Institution.


Auditee's Response to Internal Control Finding:

1. Improper Application of Federal Cost Principles

     Carnegie has nearly completed an institution-wide procedures manual, and continues
to work on write-ups of department-specific procedures. We will work with NSF to address


                                                                                            83
any deficiencies it identifies in Carnegie's procedures. We note that many of the issues
raised in the Oppenheim report result from the lack of available, clear and concise
guidelines for the treatment of certain revenues and expenses, rather than a lack of training.
      There is no question in our minds that we have treated stipends (the largest amount
identified by Oppenheim) properly by excluding them from the allocation of indirect costs.
We believe that our basic approach to the treatment of facilities rental is appropriate,
except for the one significant exception of the Magellan Consortium (FY 2000 was the first
year in which we received operating contributions from Consortium Members; we have
been able to standardize processes related to the receipt of these contributions in the
meantime). The majority of the capitalization problems are related to the actions of one
department, which prematurely raised its capitalization threshold; this inconsistency has
been addressed.
      Carnegie has a relationship with NSF which extends back over a period of years. We
look forward to resolving any substantive matters quickly with NSF.




                                                                                           84
The additional attachment has been redacted in
                  its entirety.
